Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

March 2, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

Re:

Bahig F. Bishay v. United States Department of Justice, et al.

Dear Sir or Madam:
I hereby certify that at the request of Petitioner, on March 2, 2020, I caused
service to be made pursuant to Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
U.S. District Court
for the District of Columbia
333 Constitution Avenue N.W.
Washington, DC 20001
U.S. Court of Appeals
for the D.C. Circuit
333 Constitution Avenue, N.W.
Washington, DC 20001

The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

This service was effected by depositing three copies of a Petition for Writ of
Mandamus in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting digital copies via electronic mail to the Solicitor General; the
courts were served by the Petitioner through their ECF portals..
incerely,

,

Jack Suier, Esq.
Principal

RECEIVED
MAR - 5 2020
©FFICE OF THE OLERK
SUPREME COURT, U.S.

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission exp. October 12,2022

0%

W

Sworn and subscribed before me this 2nd day of March 2020.

